 QUALITY CONTROL REVIEW OF THE
AUDITED FINANCIAL STATEMENTS FOR
        FY 2007 AND FY 2006
       Federal Aviation Administration
    Administrative Services Franchise Fund

        Report Number: QC-2008-010
       Date Issued: November 13, 2007
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited               Date:    November 13, 2007
           Financial Statements for FY 2007 and FY 2006,
           Federal Aviation Administration
           Administrative Services Franchise Fund
           Report Number: QC-2008-010

  From:    Rebecca C. Leng                                      Reply to
                                                                Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Acting Federal Aviation Administrator
           Mike Monroney Aeronautical Center Director

           The audit of the Federal Aviation Administration Administrative Services
           Franchise Fund’s Financial Statements as of and for the years ended
           September 30, 2007, and September 30, 2006, was completed by KPMG LLP of
           Oklahoma City (see Attachment). We performed a quality control review of the
           audit work to ensure that it complied with applicable standards. These standards
           include Generally Accepted Government Auditing Standards; and Office of
           Management and Budget Bulletin 07-04, “Audit Requirements for Federal
           Financial Statements.”

           KPMG concluded that the consolidated financial statements presented fairly, in all
           material respects, the financial position of the Franchise Fund as of
           September 30, 2007, and September 30, 2006, and its net costs, changes in net
           position, and budgetary resources for the years then ended, in conformity with
           accounting principles generally accepted in the United States.

           The report presented three significant internal control deficiencies and one
           instance of noncompliance with laws and regulations.
                                                                              2


Significant Deficiencies

   1. Management Oversight and Analytical Review of Financial Statements
   2. Adequate Support for Shipping Documentation
   3. Information Technology Controls over the Franchise Fund and Third-Party
      Systems and Applications

Noncompliance with Laws and Regulations

   1. Noncompliance with Public Law 104-205, Federal Aviation Administration
      - Administrative Services Franchise Fund

KPMG made five recommendations for corrective action. We agree with all and
are, therefore, making no additional recommendations. Franchise Fund officials
concurred with the significant deficiencies and noncompliance, and likewise
agreed with the recommendations. Franchise Fund officials committed to
implementing corrective actions during fiscal year 2008. In accordance with DOT
Order 8000.1C, the corrective actions taken in response to the recommendations
are subject to follow-up.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of Federal Aviation Administration,
Franchise Fund, and KPMG representatives. If we can answer any questions,
please call me at (202) 366-1496; or Earl C. Hedges, Program Director, at
(410) 962-1729.

Attachment

                                       #
